<html>
<title> - IMPLEMENTING THE 2018 FARM BILL</title>
<body><pre>[Senate Hearing 116-426]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-426

                    IMPLEMENTING THE 2018 FARM BILL

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2019

                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry
           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


       Available via the World Wide Web: http://www.govinfo.gov/
       
       

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                                __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-889 PDF                 WASHINGTON : 2021                     
          
----------------------------------------------------------------------------------- 
       
       
           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY


                     PAT ROBERTS, Kansas, Chairman
MITCH McCONNELL, Kentucky            DEBBIE STABENOW, Michigan
JOHN BOOZMAN, Arkansas               PATRICK J. LEAHY, Vermont
JOHN HOEVEN, North Dakota            SHERROD BROWN, Ohio
JONI ERNST, Iowa                     AMY KLOBUCHAR, Minnesota
CINDY HYDE-SMITH, Mississippi        MICHAEL BENNET, Colorado
MIKE BRAUN, Indiana                  KIRSTEN GILLIBRAND, New York
DAVID PERDUE, Georgia                ROBERT P. CASEY, Jr., Pennsylvania
CHARLES GRASSLEY, Iowa               TINA SMITH, Minnesota
JOHN THUNE, South Dakota             RICHARD DURBIN, Illinois
DEB FISCHER, Nebraska

             James A. Glueck, Jr., Majority Staff Director
                DaNita M. Murray, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director
               Mary Beth Schultz, Minority Chief Counsel
                            
                            
                            C O N T E N T S

                              ----------                              

                       Thursday, October 17, 2019

                                                                   Page

Hearing:

Implementing the 2018 Farm Bill..................................     1

                              ----------                              

                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     2
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     3

                                WITNESS

Censky, Hon. Stephen, Deputy Secretary, U.S. Department of 
  Agriculture, Washington, D.C...................................     5
                             
                             ----------                              

                                APPENDIX

Prepared Statement:
    Censky, Hon. Stephen.........................................    32

Question and Answer:
Censky, Stephen:
    Written response to questions from Hon. Pat Roberts..........    44
    Written response to questions from Hon. Debbie Stabenow......    60
    Written response to questions from Hon. John Thune...........    84
    Written response to questions from Hon. Patrick J. Leahy.....    86
    Written response to questions from Hon. Sherrod Brown........    89
    Written response to questions from Hon. Amy Klobuchar........    92
    Written response to questions from Hon. Michael Bennet.......    93
    Written response to questions from Hon. Robert P. Casey, Jr..    98
    Written response to questions from Hon. Tina Smith...........   109
    Written response to questions from Hon. Richard Durbin.......   114

 
                    IMPLEMENTING THE 2018 FARM BILL

                              ----------                              


                       THURSDAY, OCTOBER 17, 2019

                                       U.S. Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present or submitting a statement: Senators Roberts, 
Boozman, Hoeven, Ernst, Hyde-Smith, Grassley, Thune, Stabenow, 
Brown, Bennet, Gillibrand, Casey, and Smith.
    Chairman Roberts. I have a special announcement, if you 
will just hold on. Joey, do you want to come up here with me? I 
tell you what. Stand by me. Stand by my left. That is 
appropriate.
    I have a note here of something that happened a while back. 
I would just say, in making my comments with Joe, who is the 
top gun for this dear lady to my right, and does a splendid 
job, I have always thought, at an earlier time in my life that 
a bachelor--the definition of a bachelor was somebody who made 
the same mistake--never made the same mistake once. I held out 
until I was 34. This November, Frankie and I will celebrate our 
50th wedding anniversary.
    [Applause.]
    Chairman Roberts. That was not why I am up here talking.
    Do you realize how long you are going to have to live 
before you get to your 50th wedding anniversary?
    [Laughter.]
    Chairman Roberts. This man stayed single, a bachelor, 
working hard on behalf of agriculture for 40 years--and then he 
got very close and dating a wonderful lady. When is the wedding 
going to be?
    Mr. Shultz. It just happened.
    Senator Stabenow. It just happened.
    Chairman Roberts. Oh, it just happened. That is right. 
Well, too late for any advice!
    [Laughter.]
    Chairman Roberts. Except for best wishes. I want to thank 
you, Joe, and we are very happy for you.
    I also understand that last Saturday in central Ohio, on 
the Shultz family sheep farm, you married your lovely bride, 
Virginia. Congratulations to you on that. Is it true that you 
can shear a sheep in 13 seconds?
    Mr. Shultz. I can shear a sheep.
    [Laughter.]
    Chairman Roberts. I understand that was even part of the 
wedding.
    [Laughter.]
    Mr. Shultz. No comment.
    Chairman Roberts. No comment. All right. Okay.
    Mr. Shultz. Thank you, Mr. Chairman.
    Chairman Roberts. Thank you.
    Mr. Shultz. Thank you so much.
    [Applause.]
    Senator Stabenow. Mr. Chairman, if I might, thank you so 
much for that. It was a beautiful wedding outside, facing the 
pasture, and the sheep even came up to the fence and quietly 
participated in the ceremony. The reception was in the barn 
afterwards and I am not going to say any more about that, 
except that it was a lot of fun.
    Chairman Roberts. Okay. Coop, we are ready to do this 
thing.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order. Today, I am pleased to welcome back Deputy Secretary 
Stephen Censky to the Agriculture Committee, as he provides 
updates on the Department's implementation of the 2018 Farm 
Bill.
    Steve, thank you, for the efforts at the Department to 
implement what we know is a significant and important task: 
omnibus legislation that affects farmers, ranchers, businesses, 
rural communities, all across our great country.
    This hearing continues our bipartisan work together. Yes--
yes, make a note of it--Republicans and Democrats working 
together, still, on this Committee. Never mind that we are 
mired in something up to our necks and other committees, but we 
are still getting things done.
    So we are working with the Administration to ensure that 
these programs operate as we intended and that changes are 
implemented in a timely and most farmer-friendly manner 
possible. Steve and I have talked about that often, either on 
the phone or just a while back, where we had a good chat.
    This year, the Committee held several Farm Bill hearings, 
including an initial overall review eight months ago with 
Secretary Perdue. The Department continues to roll out changes 
to the Farm Bill programs. As of this month, our producers are 
able to visit their local FSA office to sign up and choose 
between the Agriculture Risk Coverage program, which I doubt, 
Coop. I just think they are going to go with the Price Loss 
Coverage program for crop years 2019 and 2020, given the 
circumstances.
    Important voluntary conservation programs were reauthorized 
and strengthened in the 2018 Farm Bill. I understand that 
regulations to implement many of these programs, such as EQIP, 
CSP, and CRP, are expected to be published in the very near 
future.
    Our producers are also monitoring animal disease prevention 
and management. The 2018 Farm Bill made a great commitment to 
bolstering our animal health infrastructure by directing 
mandatory funds for preparedness efforts against outbreaks of 
animal diseases and tools to combat animal diseases should they 
impact the U.S. anywhere.
    The bipartisan hemp cultivation provisions have also 
garnered great interest in the countryside, from producers and 
processors alike. I just met a young man from Oregon, who is in 
the audience, representing the hemp industry in that State. A 
new crop can provide long-term economic opportunities for 
farmers when regulations are implemented in a farmer-friendly 
manner, and will come to be important pillars of their risk 
management tools, such as good farming practices that are in 
place.
    The 2018 Farm Bill also included several measures to 
improve the integrity of our nutrition programs, such as the 
Supplemental Nutrition Assistance Program and the Emergency 
Food Assistance program. SNAP improvements from the bill result 
in better oversight of payment error rates, modernization of 
the verification process, and focusing employment and training 
on the skills needed in the work force.
    We all worked together with regards to this mission, in a 
historic fashion, to get the Farm Bill through Congress, signed 
by the President, and for the Department to implement less than 
a year ago.
    Members of this Committee know firsthand that producers, 
lenders, and rural Americans are facing another difficult year 
of low commodity prices, high input costs, and uncertainty in 
the marketplace. For many producers, this growing season has 
been far from easy. During the planting season, growers 
experienced a historic wet spring, which delayed planting in 
many parts of the country. I am always being made aware of the 
cherry crop in Michigan, which again had a freeze. Others have 
acres that were completely prevented from being planted and are 
still recovering from floods.
    This fall, as producers are trying to harvest their crops, 
challenges have continued. Just this past week, Winter Storm 
Aubrey and cold temperatures threatened crops and livestock 
from Kansas to North Dakota.
    The 2018 Farm Bill does provide important risk management 
tools such as crop insurance to mitigate the risk and losses 
from these unpredictable weather-related events. These 
challenges again highlight the need for certainty and 
predictability on domestic farm policy, provided by timely and 
farmer-friendly implementation of the Agriculture Improvement 
Act of 2018. That is what today's hearing is all about.
    I now recognize the distinguished Ranking Member, Senator 
Stabenow, for her remarks.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
for holding a very important hearing. Deputy Secretary Censky, 
it is always good to see you. I have enjoyed working with you 
over the years. Welcome back to the Committee.
    It has been ten months, as we know, since Congress passed 
the bipartisan 2018 Farm Bill. We passed it with the support of 
87 Senators, no small thing. Now, farmers and families in rural 
communities across the country are seeing the Farm Bill take 
shape in their daily lives. This is true in my home State of 
Michigan, where agriculture supports one out of four jobs.
    The changes we made to the farm safety net programs are 
helping farmers protect their crops from increasing uncertainty 
caused by weather, markets, and trade disruptions. I am 
especially pleased that the USDA has prioritized implementing 
the Dairy Margin Coverage program, which has provided more than 
22,000 dairy farms with assistance so far.
    The Farm Bill also recognizes the diversity of American 
agriculture, which is critical in Michigan where we grow a 
wider variety of crops than anywhere but one State. New kinds 
of crops and types of production, like hops and greenhouse 
operations, now have access to crop insurance. More than 600 
farmers in my State are getting involved in hemp production for 
the very first time, and urban farms in places like Detroit and 
Grand Rapids will have new opportunities to grow and expand 
their operations. They are very excited about doing that.
    The Farm Bill also improved tools to help farmers preserve 
our land, water and great lakes. I am glad that the USDA has 
held signups for all conservation programs this year, including 
those that Congress prioritized to address water quality and 
promote climate-smart agriculture.
    I am looking forward to seeing the Department continue to 
implement the Farm Bill's conservation title, including the 
changes we made to expand regional partnerships and increase 
locally led conservation.
    The Farm Bill also expanded rural internet service, 
prioritizing the most underserved areas, which is so important. 
I am pleased that the USDA is following Congress' lead by 
forging ahead on new rules that make it easier for small towns 
and rural communities to access high-speed internet.
    There are many positive developments to celebrate, but I 
also have strong concerns in several areas. I am concerned that 
the USDA is rewriting critical parts of the Farm Bill that we 
passed by the largest bipartisan vote ever. Prioritizing, in 
the efforts to mitigate trade, some regions and farmers over 
others in a way that does not make sense to me when we look at 
who has been impacted the most and pursuing rules that directly 
contradict the will of Congress. Congress prioritized local 
food systems and organic production and beginning and minority 
farmer programs. Many of these provisions have yet to be 
implemented.
    Key components of local food investments are awaiting 
action. The USDA has still not set up the Office of Urban 
Agriculture. The Department has repeatedly made harmful changes 
to nutrition assistance that were outright rejected by Congress 
in the Farm Bill, because they increased food insecurity for 
hungry families.
    There continues to be concerns that the Administration has 
not done enough to share important research and other 
information with farmers about how to mitigate and deal with 
the effects of the climate crisis. Just two days ago, the 
Forest Service went against the forestry title of the Farm Bill 
by proposing to open Alaska's Tongass National Forest to 
destructive logging. This moves us in the wrong direction as we 
look at carbon capture and the climate crisis.
    Additionally, the Farm Bill reinstates the Under Secretary 
for Rural Development position, strongly supported on a 
bipartisan basis. Yet, the President has yet to nominate a 
qualified candidate, and we are anxious to see that happen.
    It is also clear that lack of capacity at the Department is 
affecting Farm Bill implementation. The Administration has 
hamstrung agricultural research and Farm Bill grant awards by 
what I believe to be a senseless decision to relocate the 
Economic Research Service and the National Institute of Food 
and Agriculture.
    Deputy Secretary Censky, I know you play an important role 
in managing Farm Bill implementation. I know it is a big job, 
and I appreciate all the positive steps that have been taken. I 
also look forward today to talking about some of these areas 
where I have concerns.
    I appreciate the progress you have made. There is still a 
lot to do, and I look forward to working with you to ensure 
that each provision is implemented correctly, according to the 
congressional Farm Bill passed by 87 votes in the U.S. Senate.
    Thank you, Mr. Chairman.
    Chairman Roberts. We thank the Senator from Michigan.
    It is my pleasure to introduce and welcome the Deputy 
Secretary of Agriculture, Stephen Censky. He is certainly no 
stranger to the Senate Agriculture Committee. Prior to his 
current role at the Department of Agriculture he was the CEO of 
the American Soybean Association. The smile on his face is 
because it looks like China will buy more soybeans, which we 
encourage.
    Previously, he served both in the Reagan and George H. W. 
Bush Administrations at the Department. Steve is leading the 
Department efforts to implement the 2018 Farm Bill. Steve, I 
want to thank you for shouldering such an important task. It 
could not be undertaken by a person with more experience. We 
look forward to your testimony. Please.

 STATEMENT OF THE HONORABLE STEPHEN CENSKY, DEPUTY SECRETARY, 
        U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Mr. Censky. Thank you, Mr. Chairman, Ranking Member 
Stabenow, Senator Smith and other members of the Committee. 
Thank you very much for this opportunity to appear before you 
to provide an overview of the Department's implementation of 
the Agriculture Improvement Act of 2018.
    At the Secretary's direction, our implementation cadence 
has been aggressive. This includes opening up sign-up for the 
Dairy Margin Coverage program on June 17th. The 2019 sign-up, 
which went through September 27th, enrolled nearly 23,000 dairy 
producers, and those dairy operations will be provided around 
$300 million in assistance in 2019 alone, and we look forward 
to sign-up as we go forward as well.
    For our crop producers, crop insurance has been a vital 
part of the farm safety net, and RMA has implemented key crop 
insurance provisions such as the Multi-County Enterprise Units. 
In addition, key provisions related to veteran farmers and 
ranchers have been implemented that make crop insurance more 
affordable and with more robust coverage.
    The 2018 Farm Bill also enhanced the Agriculture Risk 
Coverage and Price Loss Coverage programs. The Farm Service 
Agency readily implemented these provisions to, and these 
changes to ARC and PLC, with sign-up for the 2019 beginning on 
September 3rd.
    Implementation of the conservation programs has been on 
track as well. Sign-up for the Continuous Conservation Reserve 
program and Conservation Reserve Enhancement program were held 
June to August. FSA will hold a CRP general sign-up beginning 
in early December, with CRP Grasslands to follow.
    Rural Development has also been working hard to implement 
the various provisions of the Farm Bill so that we can continue 
to help improve the rural economy and the quality of life in 
rural America. Most recently, RD has expanded access to credit 
for rural communities by increasing the population limits for 
community facilities and water and waste disposal programs to 
50,000, as directed in the 2018 Farm Bill.
    The Forest Service is also using the Farm Bill and the new 
authorities that have been provided to it to do the work at the 
right place and on the right scale. Additionally, on September 
25th, the agency published the proposed rule implementing the 
Farm Bill provisions regarding communicationsites management, 
which will expedite the application process for individuals and 
companies that want to build communicationsites on our national 
forests and grasslands, thereby expediting the broadband 
service improvements in rural communities.
    The Food and Nutrition Service plays an important role to 
provide access to healthy, nutritious foods, including placing 
emphasis on increasing fruit and vegetable purchases for SNAP 
recipients. We are also renewing our focus on creating clear 
pathways for self-sufficiency for SNAP sufficiency through 
effective employment and training programs, with a proposed 
rule set to come out this fall that will implement meaningful 
improvements in the administration of employment and training 
programs, and will provide instructions reflecting the new 
self-enacting Farm Bill provisions.
    The Agriculture Marketing Service has also been working 
aggressively to stand up the hemp production program in advance 
of the 2020 planting season. The rule should be cleared for 
publication in the very near future, and we look forward to 
having this program available to interested States, Tribes, and 
producers for the 2020 production season.
    The 2018 Farm Bill also included provisions that directly 
support animal disease prevention and preparedness, including 
creation of a National Animal Vaccine and Veterinary 
Countermeasures Bank, along with National Animal Disease 
Preparedness and Response Program, and support for our National 
Animal Health Laboratory Network.
    As the first step toward implementation of these 
provisions, the Animal and Plant Health Inspection Service has 
issued a sources sought notice on September 10th, to gather 
information from interested food-and-mouth disease vaccine 
manufacturers, and we have requested proposals for animal 
disease preparedness programs and for support of our laboratory 
networks.
    The 2018 Farm Bill continues to help farmers and ranchers 
identify and access new export markets, and in February, the 
Foreign Agriculture Service allocated more than $204 million in 
MAP and FMD resources and program funding.
    We continue to implement other provisions, including the 
National Institute of Food and Agriculture to implement the 
important research provisions. We also are working overall to 
implement over 400 discrete provisions of the Farm Bill, and 
working hard to deliver the programs that serve the urgent 
needs of our customers.
    Before I close, I also want to recognize our dedicated 
career staff at the Department of Agriculture that have been 
working along with us to implement these programs. It is a 
privilege to serve alongside them, as we say at USDA, to do 
right and feed everyone.
    Thank you very much.

    [The prepared statement of Mr. Censky can be found on page 
32 in the appendix.]

    Chairman Roberts. We thank you for your opening testimony.
    My first question is farm owners and operators impacted by 
the grass and pasture base acres provisions should have 
received a letter, and we talked about that just prior to the 
hearing, in June and/or September, regarding their farm's 
eligibility for the commodity programs and the new Grassland 
Conservation Initiative. This is a new policy on base acres and 
a new conservation program. Compared to other programs, the 
sign-up time limits have been relatively tight, right when 
producers are busy in their fields, and with the floods and all 
of the weather problems and then the situation with trade 
tariffs and the whole--virtually everything that they have to 
consider.
    So the enrollment seems to be a little low. The producers 
with impacted numbers, the deadline of Friday, October 25th, to 
enroll in the Grassland Conservation Initiative. Can you 
describe the outreach the Department has conducted with these 
producers to make them sufficiently aware of their eligibility 
status ahead of the sign-up periods for the Agriculture Risk 
Coverage, Price Loss Coverage programs and the Conservation 
Grassland Initiative? We talked about the possibility of maybe 
even extending that deadline.
    Mr. Censky. Thank you very much for your question, Mr. 
Chairman, and I know this is an important provision in the Farm 
Bill and it has been our pleasure to work with you as we move 
forward to implement that.
    In terms of our outreach to producers, we did send a letter 
in early June to around the 40,000 producers that, from our own 
records, that we thought might be eligible to participate. Then 
in late August, early September, we sent another letter to 
those same people, as well as an additional 40,000 that we 
thought might be eligible as well, to inform them about the 
program, asking them to come in to our offices to sign up for 
the program.
    There will be--you know, we will be happy to take a look at 
a potential extension of the sign-up, if that would help some 
of the producers. We know that this has been a very unusual 
year, in terms of production and late planting. So we can 
take--certainly we will take a look at that and work with you 
on that.
    I will note that producers will have the chance to sign up 
for this program in the future, as well, so even if they decide 
not to sign up this year, and then next year decide that, oh, 
actually, we think that this is a good program, that works for 
me and my operation, and we do want to sign up, they still will 
be able to sign up, and still be able to get the five-years of 
payments.
    Chairman Roberts. I thank you for that response.
    As the Department rolls out changes to the major commodity 
and conservation programs required by the 2018 Farm Bill, how 
is the farm production and conservation mission ensuring that 
producers receive consistent information and service across the 
thousands of county and state offices of the FSA and the NRCS? 
Forgive my acronyms.
    Given the limited resources, what steps has the Department 
taken to improve software updates, employee training and other 
factors to implement changes? You have already touched on this 
to some degree.
    Mr. Censky. Well, thank you for that as well. We have done 
a lot of training to make sure that our staff and our offices 
are informed, know about the provisions, and know how to 
implement the provisions. We have held three major national 
trainings of all of our staff from across the country already 
on the Farm Bill provisions.
    We have a fourth one that is going to be coming up 
specifically on the CRP and some of the other conservation 
programs. That is joint between our Farm Service Agency and our 
Natural Resources Conservation Service. We do take that 
training very seriously so that producers are receiving 
consistent information and the provisions are being implemented 
consistently across all of the States.
    We also have been doing the software updates. It has been 
very important to have modernized systems, and that has been 
one of the key focuses that we have had at the Department. 
Under Secretary Perdue and my leadership we have been very 
focused on how can we modernize our computer systems so that it 
works better for farmers and better for our own staff. I think 
some of the sign-up that we had this last year, just a few 
months ago for the Dairy Margin Coverage program is probably 
symbolic of that, where it was a lot easier for our staff and 
the producers to be able to sign up into that program.
    Chairman Roberts. I appreciate that.
    Steve, as you know, animal disease outbreaks are an 
increasing threat to producers across the board in the United 
States. Ongoing outbreaks around the world of disease such as 
foot-and-mouth disease and African swine fever have our 
producers on high alert.
    Could you describe the timeline for implementation of the 
National Animal Vaccine and Veterinary Countermeasures Bank 
that was something that was highly recommended by various 
groups? Can you also provide an estimate for when the 
Department would be prepared to begin securing animal vaccines 
under this program?
    Mr. Censky. I appreciate that question, and I do say, let 
me just observe at the outset. I think that the animal disease 
prevention and preparedness provisions in the Farm Bill are one 
of the most provisions that was included in the Farm Bill, so 
it is our pleasure to move forward on implementing that.
    Specifically, with regard to the vaccine, the Department 
issued a sources sought notice on September 10th. To the 
vaccine manufacturers, to get information about the types--the 
various vaccines that they have available, for what serotypes, 
the amounts that they have available, and that information just 
closed on October 10th, and we have that information. We are in 
the process of analyzing that, and we will be putting together 
a plan on what types of procurements we want to do, for what 
serotypes, the quantities, based on this information, as well 
as surveilling what else is available through some of the other 
banks that are around the world. What are the best investments?
    We look forward to going out and starting that request for 
proposals for the acquisition of those serotypes toward the end 
of the year or the beginning of the next calendar year.
    Chairman Roberts. I appreciate that. Senator Stabenow.
    Senator Stabenow. Thank you, Mr. Chairman. First, Deputy 
Secretary Censky, I want to thank you again for the positive 
efforts moving forward and the work done on the Dairy Margin 
Program. This is an example of really moving forward in a 
positive way for our dairy farmers.
    My concern, overall, is that we fought very hard, and we 
negotiated very hard--different regions of the country, the 
House and Senate, in putting together the Farm Bill, to make 
sure that it was a balanced approach. We fought hard to ensure 
that every region, type of commodity, and issue, such as risk 
management would be covered.
    Now however, because of what is happening on trade, I feel 
like the market facilitation program is throwing that all away. 
This is deeply concerning to me, in the context of what we 
wrote in the Farm Bill. The Market Facilitator Program is 
certainly not using the Farm Bill structures on payment limits 
and is not focusing in a balanced way.
    We know that farmers are being hurt by chaotic trade 
policies. I support making sure that we do everything we can to 
provide assistance. In general, does the USDA believe that the 
Market Facilitation payments are equitable and line up with the 
actual harm being felt by farmers?
    Mr. Censky. Yes, thank you for that question, Senator. We 
do believe that we went through a very careful process to try 
to assess what is the damage that has been done by China's 
retaliatory tariffs and the other retaliatory tariffs that we 
are facing in some of the countries around the world. The 
modeling of what was that damage and how could that best be 
mitigated. For some of the crops, of course, that includes 
market facilitation payments, where it is easier to go ahead 
and make those payments, again, based on the damages that have 
been done. For other crops, where it is not as easy to make a 
market facilitation payment, we have done commodity purchases.
    So, again, we have used a consistent format to try to 
estimate the damages that have been done to the different 
commodities, from the retaliation that has taken place, and 
wanted to provide that support.
    Additionally, as you know, the third leg of that stool, in 
addition to the market facilitation payments and the commodity 
purchases and distribution, has been the Agriculture Trade 
Promotion program, to try to support the further market 
development for those commodities, and that has been generally 
made available to all commodities.
    Senator Stabenow. Well, I can tell you that I appreciate 
your response. But I can tell you in Michigan it is certainly 
not being felt that way. We have diversity of crops, have been 
hit in many different ways, and I do not see how the payments 
are lining up with the damage. Let me just step back. Ninety-
five percent of the counties with the top rate, with a payment 
rate of $100 or more, are in the South. Seventy-seven percent 
of the counties that have minimum payments of $15 are in the 
North and West.
    I am not trying to start a new war between the North and 
the South, but we work really hard to make sure the Midwest and 
the North are viewed equally in terms of agriculture.
    But we are seeing the high payment rates clearly going to 
Southern counties and commodities, despite the fact that the 
North and Midwest have been hit the hardest. Here is an 
example. Cotton received significant payments last year, in 
2018, even though cotton prices increased--increased--for the 
2018 crop. Cotton certainly has not been directly involved in 
the trade war.
    Meanwhile, farmers in the North and the Midwest who would 
normally ship to China are facing significantly lower prices. 
On top of that, they are also facing the higher transportation 
costs of having to reach alternative markets. Do you think that 
is fair and equitable?
    Mr. Censky. Senator, as we looked at and used our 
modeling--our chief economists used the modeling to take a look 
at the actual retaliation and the effects of how that is 
affecting our exports of the various commodities, and that has 
been done on a consistent basis without any kind of 
consideration of North, South, East, West to take a look at 
what are those actual effects.
    In terms of the retaliation and the differences in between 
counties, we worked hard to try to make sure that we were 
being--using a consistent approach, and generally, to the 
degree to which a county had more of a crop that was more--that 
had a higher impact. That higher portion of that, crops being 
grown in that county were a highly impacted crop, which means 
that the payment rate would be higher.
    As we saw there are--we certainly know that there are corn, 
soybeans, wheat, other commodities that have been impacted, and 
so has cotton as well----
    Senator Stabenow. Cherries----
    Mr. Censky [continuing]. Impacted--and cherries.
    Senator Stabenow [continuing]. Cherries and other crops as 
well, have also been impacted.
    Mr. Censky. Yes.
    Senator Stabenow. What I would say is, you, with all due 
respect, I do not see the evidence of that. I hope you will 
work with me and with others to lay this out. I would like to 
see this evidence, because that certainly does not line up with 
what we are seeing on the trade impacts as it relates to others 
across the Midwest.
    One other question Mr. Chairman. The 2018 Farm Bill 
rejected all of the harmful changes to SNAP that were proposed 
in the House-passed bill. We had votes and we did not move 
forward on it. Yet, the USDA has continued to ignore what we 
did in the Farm Bill, ignore the votes that we had, rejecting 
these, and proposed rules that make major changes to the SNAP 
that are going to take away food from families.
    Has the USDA done analysis of the combined impact of all 
the different proposals that you have and the impact they will 
have on families when they are finalized?
    Mr. Censky. Well, thank you, Senator, and just as a 
followup on the last question, I would be happy to work with 
you and to lay out some of our methodology, and work with you 
on that, with regard to the market facilitation payments and 
the trade mitigation.
    With regard to the SNAP program, I do want to say that we 
very much believe in the SNAP program. We know how important 
that is in providing nutrition assistance to over 36 million 
Americans. We also fully support those that meet the 
eligibility requirements that are set by Congress, that they 
receive those benefits.
    The changes that we have proposed, that the Department has 
proposed in the SNAP program, are really to make sure that 
those eligibility requirements are being enforced and being 
met. What we have seen, developed through some of the years--
and we have been criticized by both the GAO as well as the 
OIG--that have said that we need to do a better job of making 
sure those eligibility requirements are being enforced. We do 
not have States that are either using any kind of 
administrative loopholes or gerrymandering labor markets in 
order to try to make more people eligible.
    Again, we very much believe in the program, and are working 
to make sure that those that meet the eligibility requirements 
are able to receive those benefits.
    Senator Stabenow. I have two comments. One, I find that in 
the big picture on both of these topics--Market Facilitation 
Program payments and SNAP program changes--that somehow the 
Department is okay with large inequities and inequality between 
farmers and regions. This has loosened up the Farm Bill as we 
look at commodities. But yet the Department is wanting to 
restrict what is happening for nutrition for families, 
regardless of local circumstances, and seeking more and more 
restrictive rules.
    I would note that on Tuesday the USDA finally acknowledged 
that the categorical eligibility rule would impact school 
meals. I would point out, however, that I believe the analysis 
is still flawed and ignores many of the rule's consequences.
    The fact of the matter is that we are looking at nearly one 
million children that would lose access to meals, as well as 
other impacts. And so, I would strongly urge you to reconsider 
the direction that you are going with this rule.
    Thank you, Mr. Chairman.
    Chairman Roberts. Senator Hoeven, are you ready, willing, 
and able?
    Senator Hoeven. Yes, sir. Reporting for duty.
    Chairman Roberts. I want to thank you for your tremendous 
job as the Chairman of the Agriculture Subcommittee on 
Appropriations. We are always aware of those people who serve 
on the Appropriations Committee. You defended CCC funding and 
did an excellent job. So you are recognized, sir.
    Senator Hoeven. Thanks, Mr. Chairman. Thanks to--and the 
Ranking Member for calling this hearing today, and of course, 
to Deputy Secretary Censky. Thanks for all your work and your 
diligence and your commitment to agriculture and our farmers. 
It is real, it is noticed, and it is appreciated.
    Let's talk about The Wildfire and Hurricane Indemnity 
Program Plus (WHIP+) for just a minute. As you know, we have 
had just terrible weather throughout the Midwest, and now in 
the Upper Midwest, and our farmers are really up against it, 
with flooding, due to, you know, early freak blizzards and 
rain. We continue to get rain and flooded fields.
    So talk about how we can help those farmers with WHIP+. Do 
you have enough money to do it, and how you are going to handle 
these requests for secretarial disaster declarations that are 
coming your way.
    Mr. Censky. Well, thank you very much, Senator, and I 
appreciate you raising this, and that is something that we 
think is very important and moving forward to implement the 
WHIP+ program and the disaster assistance that is available for 
producers that were either prevented from planting, that have 
been affected by flooding, by snowstorms, by hurricanes, 
wildfires, and volcanic eruptions.
    So we are moving forward. As you know, that program is 
available. In terms of how does a producer, how does a county 
qualify, those determinations, it either has to be the producer 
needs to be in a county that has been declared a disaster area 
by the Secretary or the President. What that takes is at least 
a 30 percent loss of a crop. It just has to be one crop in a 
county, and that qualifies that county as being eligible for a 
declaration, and thus, that makes those producers in that 
county eligible.
    I know that our Farm Service Agency in North Dakota is 
working right now, assessing the damage that has been caused by 
this most recent, the heavy snowstorm, that early snowstorm 
that hit, and real has impacted producers in your State, and we 
look forward to receiving that information in the coming days.
    Senator Hoeven. It is also for producers in non-disaster 
counties too, on a case-by-case basis. Talk about that.
    Mr. Censky. Yes. Producers, even if they are--let's say 
that they are adjoining, if they are in a contiguous county 
that is not declared, but they also have been impacted by that 
same event, they can go in and go to their county FSA office 
and make that application, and the county committee will 
consider that. If they are in a contiguous county that is next 
to one that has been declared, and they have been impacted by 
that same eligible loss of a flooding or a snowstorm, they can 
be determined eligible, yes.
    Senator Hoeven. Okay. So that combined with the MFP--so 
implementing the Farm Bill on a farmer-friendly basis, 
implementing the MFP, providing this disaster assistance at a 
time when our producers really are up against it, as we have 
talked about commodity prices and the other challenges with 
trade and everything else. By the way, we appreciate the 
progress with China. We need to keep pressing forward and 
getting sales, and, of course, getting agreement.
    Are the FSA offices staffed up and ready to go, the way 
they need to be, because they have got a lot going on to help 
these farmers right now. Through the good work of our Chairman 
here and Ranking Member, this Committee, our Agriculture 
Committee, you, USDA, we have got the programs now to provide 
some help, but those FSA offices have to be staffed and able to 
deliver it. How are we doing there?
    Mr. Censky. Yes. We have a very aggressive hiring plan that 
is in place. We have been really trying to address that, 
because we know that some of our county offices are 
understaffed, and at some of our State offices. We think that 
is a high priority for us, to make sure that we are recruiting.
    We have had some bottlenecks, I will say, in the human 
resources area, and we have really amped up and increased our 
human resources staff so that we can hire more people. We have 
implemented a tool, an optimally productive office tool to 
assess what is the workload in each office, so that we can make 
sure that we are putting the right people in, so that we know 
what the needs are. We have also sent, you know, others--
shifted tiger teams to try to help those offices that are under 
water. We have a very aggressive hiring plan.
    One of the things that we have requested from the Office of 
Personnel Management, which will allow us to hire quicker, is 
direct hire authority, and that is something that is somewhat 
unique in the government system, of where we have to advertise 
on USAJobs in order to hire someone in a local office. Of 
course, folks in my home county and your home county have 
probably never heard of USAJobs before, and it would be a lot 
easier if we could hire directly.
    Senator Hoeven. Well, if there is something we can do to 
help there let us know, because we have made sure that you have 
the funding in our personnel line to hire people, and you need 
some people now to deliver that service. So we want to make 
sure we are helping you get them in place, and that you are 
following the directives that we have built into not only the 
Farm Bill but the agriculture appropriation bill, to make sure 
that staffing is in place.
    Mr. Censky. Thank you, Senator.
    Senator Hoeven. Thank you. Again, thank you, Mr. Chairman.
    Chairman Roberts. Thank you, Senator. Senator Smith.
    Senator Smith. Thank you, Mr. Chair, and thank you, Ranking 
Member Stabenow, and Deputy Secretary Censky, thanks so much 
for being here and thank you for your service. I am happy to--
my fellow Minnesotan from Jackson, Minnesota.
    So before--as I was preparing for this Committee I made a 
bunch of calls around Minnesota, and then yesterday I was on 
the Ag Radio in the morning, talking about implementation of 
the Farm Bill and how things are going. I have to tell you, the 
No. 1 thing that people wanted to talk about was not 
implementation of the Farm Bill but this ethanol situation. You 
know, people were kind of feeling hopeful when the President 
talked about this 15-billion-gallon blend assurance, after what 
has been a really cruddy year for corn producers and ethanol 
facilities, I mean, some of whom are literally going out of 
business.
    So just earlier this week, this new proposal came out. 
People really felt like it was a bait-and-switch. I know you 
have worked a lot on this, so I have got to ask you, what is 
going on here and how can we get to 15 billion gallons being 
not only what we are supposed to be doing but what we are 
doing, so that these secret waivers stop really damaging 
agriculture in Minnesota and around the country?
    Mr. Censky. Thank you, Senator, and I agree with you and 
your overall statement and premise about how important the 
renewable fuel standard is to rural American, rural jobs, to 
producers in supporting commodity prices, and how important 
that is.
    We are pleased, you know, that it was two weeks ago that 
the President brokered an agreement with the--with both us at 
the Department of Agriculture as well as the EPA, to make sure 
that 15 billion is 15 billion gallons. EPA came out, as you 
know, with a supplemental rule as to move forward to implement 
part of that agreement. I can just assure you, from the--
directly, from the conversations with the President, and the 
President is insistent that EPA administer this to make sure we 
achieve 15 billion gallons. On just as recently as last Friday, 
the Secretary had a conversation with Administrator Wheeler, 
where, again, the EPA very much plans to administer to make 
sure that we achieve that 15-billion-gallon target, and that 
whatever projections they are doing for those small refinery 
exemptions, moving forward, that those are redistributed and 
that we achieve that 15 billion gallons.
    Senator Smith. Well, I think it is really so important, 
and, you know, right now Minnesota--I know a lot of people are 
riding around on their combines about two to three weeks behind 
in the harvest because of the terrible weather we have been 
having, and they are wondering about this, and they are worried 
about it.
    So if you will commit to work with me on this, I think it 
is--I know that Senator Grassley and others of us from the 
Midwest are very worried about it. Can we work together on this 
to make sure that we can get to where we need to be on making 
these--making the renewable fuel standard whole, really?
    Mr. Censky. Absolutely, and I look forward to working with 
you on that, Senator.
    Senator Smith. Thank you very much.
    When I talk to farmers in Minnesota, after we are done 
talking about the bad weather and tariffs and all the worries 
that they have, they are, of course, happy that we are moving 
forward with implementation of the Farm Bill, which they think 
is a good thing. A lot of times they will raise to me their 
issues around health and health care costs. You know, for most 
farmers that is one of the biggest economic factors that they 
are dealing with.
    So I was really in the bill that we passed last year, a 
good bipartisan bill, it included work that Senator Rounds and 
Senator Jones had done, that I worked on as well, around a 
rural health liaison in the Department of Agriculture, to try 
to coordinate the work we need to do around maintaining access 
to health care in rural areas.
    Could you just update us on how you are doing with 
fulfilling that position?
    Mr. Censky. Yes. We have been moving forward. We have been 
having discussions with the Department of Health and Human 
Services about detailing someone from the Department of Health 
and Human Services over to USDA to work with us and to serve on 
at least a detail opportunity as that rural health liaison as 
we set that up, because we think that is very important to make 
sure that we have that inroad into the Department of Health and 
Human Services, because know that is where the bulk of the 
resources to try to help rural hospitals and producers in rural 
areas really are, and folks in small town.
    We look forward to working with that. I am going to be 
having a conversation actually later this week----
    Senator Smith. Good.
    Mr. Censky [continuing]. With the deputy there about how we 
can make that happen just as quickly as possible.
    Senator Smith. Well, thank you. I appreciate you keeping us 
up to date on that, and I look forward to working with you on 
that as well. I do think it is a good idea and will be really 
useful.
    Mr. Chair, I am going to--I have a few questions that were 
submitted to me by our Commissioner of Agriculture, Tom 
Peterson, which I would like to send along to you, Deputy 
Secretary Censky, if that is acceptable, around industrial hemp 
and around the National Animal Disease Preparedness and 
Response Program. I will just submit those for you to followup 
with me later on.
    Mr. Censky. Great.
    Chairman Roberts. Without objection.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chairman, and it is great 
to have you, Secretary Censky, with us today. As you know, we 
had great success in the last Congress passing a Farm Bill, in 
large part due to the hard work of the Committee and its 
leaders. The Chairman and Ranking Member did a tremendous job 
with this.
    We have had significant disasters in the last couple of 
years and because of that it really has put our farmers and 
ranchers, in many regions of the country, in a very difficult 
position.
    I know USDA has worked hard to implement the programs as 
expeditiously as possible, while also delivering much-needed 
support like WHIP+, and the Market Facilitation program 
payments. We appreciate all that USDA is doing, on a number of 
different fronts, to help the very difficult times that our 
farmers face right now.
    Additionally, I was pleased to see, that this week, ARC and 
PLC payments have started to be paid out to farmers. That is a 
very good thing. These are going out at a critical time, and 
although some crops will be paid later due to how the program 
works, I really encourage USDA to pay out those as quickly as 
possible.
    I would like to talk a little bit about crop insurance. As 
you know, crop insurance is certainly a cornerstone of our farm 
policy. It provides crucial risk management tools for producers 
and covers well over 100 crops. In the Farm Bill, I championed 
language that directed the Department to carry out research and 
development for insurable irrigation practices like alternate 
wetting and drying and furrow irrigation to be offered under 
the current rice policy. These irrigation practices allow 
farmers to use less water and be more efficient with their 
resources.
    Could you give us an update on the implementation of this 
provision and if it will be available for the 2020 crop year?
    Mr. Censky. Yes, thank you very much, Senator, for your 
comments and that question. Thanks also for being a champion 
for those provisions. The Risk Management Agency has done the 
research on those provisions, both of those irrigation 
practices. We hope to have coverage available for both of 
those, for the 2020 year, to give producers that kind of 
coverage and that kind of flexibility. We plan to be announcing 
some of those regulatory changes later this year, so in the 
very near future we will be announcing that.
    Senator Boozman. Very good. Thank you.
    Another issue that I hear more and more about as it seems 
to be spreading dramatically throughout the country, is the 
feral swine problem that we face. It is no secret that this is 
one of the biggest challenges facing producers across the South 
and it is growing daily. The animals are extremely destructive, 
responsible for an estimated $1.5 billion in damages nationwide 
annually. The population has exploded in much of my State, and 
throughout the country.
    Arkansas Game and Fish Commission insists that they are 
unable to get an accurate count because there are simply too 
many of them out there to be counted. I was pleased to see 
that, as you noted in your testimony, NRCS accepted project 
proposals earlier this year to help control these nuisance 
animals.
    Could you provide a broader update as to what is going on 
and the response that NRCS received to the program, and the 
projected timeline for project awards?
    Mr. Censky. Yes. Thank you, Senator, for that, and we 
think, too, this is a very important area. We have announced 
projects in 10 States that have been most impacted, that have 
the highest density and the highest impact of damage from feral 
swine. This is a project and a program that is being jointly 
administered, both by our Animal and Plant Health Inspection 
Service as well as our Natural Resources Conservation Service. 
We have gone forward and asked for proposals from those States. 
We have received those proposals, and we will be awarding those 
and moving forward with those projects in the very near future.
    Senator Boozman. Good. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Roberts. Well, Bob, thank you for your patience. I 
think that under the circumstances we will recognize you for 
six minutes instead of five.
    Senator Casey. Wow.
    Chairman Roberts. That is my gift to you.
    [Laughter.]
    Chairman Roberts. You can ask for an extension.
    Senator Casey. Mr. Chairman, I am honored by that 
additional time. It has never happened before in any hearing.
    Chairman Roberts. I think it is a first.
    Senator Casey. I am grateful. I will send you Pennsylvania 
candy, free of charge, of course.
    Thank you, Mr. Chairman. Mr. Deputy Secretary, thank you 
for being here. Thanks for your continuing service. I know at 
one point in your career you served in the Senate, on the 
Senate staff, and we are grateful that you are willing to serve 
in the Executive branch again. I know it is not your first 
time.
    First I will start with the good news. One of the areas of 
implementation that others have pointed to is in the area of 
dairy policy, and my home State of Pennsylvania, our largest 
industry, depending on how you measure it, is agriculture, and 
the largest sector within that is dairy. So to hear that 
Pennsylvania dairy farmers are expected to receive more than 
$23 million under the first dairy margin coverage enrollment 
numbers, that is good news.
    I know we need to do more. There is obviously more to do to 
support dairy farmers, including lining up--I should say, 
including lifting up dairy operations of all sizes through 
innovative investments and support. But I am grateful for your 
work and the Department's work.
    An area of great opposition and concern, of course, is this 
Supplemental Nutritional Assistance rule. This is going to lead 
to a loss of vital nutritional assistance for people across my 
home State. I was a signatory to two letters. One is a letter 
from a number of Senators, September 23d, in opposition to the 
rule, but then a letter the day after from the Pennsylvania 
delegation, or I should say part of the delegation.
    We note in there, in terms of a Pennsylvania-specific 
number--and I am quoting from the third paragraph--to Secretary 
Perdue, we say, and I quote, ``The proposed rule will 
jeopardize SNAP benefits for 200,000 Pennsylvanians in more 
than 120,000 households,'' unquote. Then later in the letter we 
talk about of those 120,000 households, about 84,000, roughly 
70 percent of them, have a senior in the household or someone 
with a disability.
    I do not have to repeat what is in headlines today. There 
is a headline today that I just saw. It was on Business 
Insider. The headline was, ``A New Trump Administration Rule 
Would Deprive Nearly 1 Million School Kids of Automatic Free 
Lunches, Official Figures Say.''
    So lots of reason to be very concerned about this. Lots of 
reasons to be opposed. I hope--I hope that the Administration 
and the Department will be not just aware of that opposition 
but will take that into account as you move forward. I do not 
expect an answer today on that, because we have letters that we 
are awaiting answers to.
    But I wanted to move to, in the time that I have, the 
Chesapeake Bay. The water quality of the bay is, of course, of 
great consequence to several States and the people who live 
within those States, including Pennsylvania. We know that the 
improvements to benefit water quality made through changes in 
the Conservation Reserve Program are important. I just have a 
couple of questions about that, about CRP.
    The new statutory provision that goes with the acronym 
CLEAR, Clean Lakes, Estuaries, and Rivers Initiative, which 
directs USDA to ensure that at least 40 percent of acres are 
enrolled in continuous CRP go to practices to benefit water 
quality. Can you give us an update of FSA's plans to move 
forward with the initiative and how you will ensure that 
eligible farmers and landowners are aware of the opportunity to 
enroll?
    Mr. Censky. Thank you very much, Senator, for that 
question, and I agree with you that the Chesapeake Bay has been 
a real great example of how our voluntary conservation programs 
have worked to really make an impact, of working with farmers 
to make an impact there. I believe Pennsylvania has the highest 
number of CRP acres that have been enrolled in the Chesapeake 
Bay region.
    We look forward to implementing the CLEAR 30 provisions, 
that pilot program that is in the Farm Bill. Our priority has 
been to first work on the general signup, which we plan on 
holding in early December, followed by the grasslands signup 
shortly after the first of the year, and then move on to the 
pilot of the CLEAR 30 in the spring. We plan on really reaching 
out to producers, making sure that they are aware of them 
through our communications from our Farm Service Agency, so 
that they are aware of the opportunities to enroll in this 
program.
    I would also note that a lot of the practices that, again, 
are I think going to be targeted under the CLEAR 30 are also 
eligible under the continuous signup as well. We did have some 
of those acres that probably are able to come up under 
continuous signup, which we continue to run, but we really look 
forward to also implementing this CLEAR 30 project, which 
again, I would expect to be in the spring.
    Senator Casey. Great. Just one additional question. Will 
FSA ensure that all relevant water quality practices are 
offered through CLEAR?
    Mr. Censky. We will be happy to work with you on that. I 
would imagine that it was--I do not know the details of what 
water quality practices are or are not in that, but I would be 
happy to work with you, Senator.
    Senator Casey. We will get together with you on that.
    Also, within CRP, the Farm Bill also established, by 
statute, the Conservation Reserve Enhancement Program, which 
Pennsylvania has used to enroll thousands of acres of riparian 
buffers and agricultural land. Any update you can provide on 
FSA's plans to support States and partners in implementing 
those CREP provisions in the 2018 bill?
    Mr. Censky. Sure, and we continue to move forward with 
Conservation Reserve Enhancement Program for 2019, and 
continuing to hold signup for those provisions that were 
available under the old law and that matched up with the new 
law. We are in the process right now of updating our 
regulations for some of the new provisions that apply to the 
Conservation Reserve Enhancement Program, and look to have that 
regulation published sometime yet this fall.
    Senator Casey. Great.
    Mr. Chairman, in the interest of comity I will reserve the 
rest of my time for another day. Thank you.
    Chairman Roberts. Let me say to our three distinguished 
members that we are waiting on Senator Thune and the 
distinguished Senator from Iowa, Joni Ernst, to come through 
that door, almost at any moment. So if you want another six 
minutes----
    You know, Bob, quite a few dairy farmers are trying to pick 
on your State of Pennsylvania, but they have moved to Kansas, 
where their operations are about 20 miles from anywhere. We 
welcome them. That just could be an opportunity. I am just 
suggesting.
    All right. Saved by the bell. The Chair is most happy to 
recognize the distinguished Senator from Iowa.
    Senator Ernst. Just in the nick of time. Thank you, Mr. 
Chair and Ranking Member, and thank you, Deputy Secretary 
Censky, for being here today. I would like to start with a 
question on something that is very, very important to me, and I 
believe to the USDA as well.
    I want to thank you for all the work that you have done 
recently on our biofuels initiatives. This has been very, very 
important to our farmers and producers. A lot of the ongoing 
discussions, you have been involved with those with the White 
House, and let me tell you, your support has not gone 
unnoticed. So thank you so much for that. I appreciate it.
    As you know, one aspect of this deal announced on the 
fourth of October is that USDA will seek opportunities to 
consider infrastructure projects to facilitate higher biofuel 
blends. Building demand for biofuels is key. This is key to the 
industry's future survival.
    Can you elaborate for us today on what the USDA's plans and 
potential timeline might be?
    Mr. Censky. Well, thank you very much, Senator, for that 
question, and thank you for all of the support that you have 
given and being such a champion as well, on the biofuel issue. 
It has been very, very useful and it has been very much 
appreciated. So I appreciate all of the good work that you and 
other members of this Committee have done on that front.
    With regard to the aspect of incentivizing and helping 
build out the infrastructure for biofuels, that is a program 
that we do have some history at USDA. We implemented a biofuels 
infrastructure program previously. But as we move forward, we 
want to take a look, and we are really standing up a new 
program. We want to make it different. We want to talk to 
independent retailers. We want to talk to folks in the industry 
about what is needed both to incentivize the higher blends of 
ethanol as well as what infrastructure might be needed.
    You know, ideally it would be great that if we can 
incentivize and have folks switch out, and retailers switch 
out, go from E10 to offering E15 on a large basis would really 
help with demand. That is what we want to hear from folks, of 
what is needed, how can we utilize our resources at the 
Department. We plan on holding some--having some roundtables in 
the very near future on that, and then look forward to trying 
to implement a program and have it up and running by early next 
year.
    Senator Ernst. Okay. Thank you. I appreciate that very 
much. Obviously, again, a very important issue to not only the 
folks in the Midwest, producing the fuels, but consumer choice 
at the pump as well.
    The next question, I would like to visit a bit about hemp. 
Since the Farm Bill will passed, we have seen a big rise in 
interest from farmers that want to grow hemp, and I have had 
many folks at my farmer roundtables or at the 99-county tour, 
they will come forward and ask, ``Where are we with that?''
    States are currently working their way through the 
rulemaking process but they do need guidance. It is my 
understanding that OMB is finishing their review of the 
National Hemp Program. Do you know when we can expect USDA to 
release the plans for public comment?
    Mr. Censky. We would expect to be issuing the interim final 
rule here within the next couple of weeks. We have been in the 
interagency clearance process now for over 90 days, working 
with some of our Federal colleagues through the OMB process to 
get input from there, and I think we are nearing, just about at 
the end of that process.
    Senator Ernst. That is excellent, and those farmers will 
thank you for that. They are looking for ways to diversify 
their crops, so thank you very much.
    With that, Mr. Chair, I yield back.
    Chairman Roberts. Thank you, Senator. Senator Brown.
    Senator Brown. Thank you, Mr. Chairman. Secretary Censky, 
nice to see you again. Thanks for your service prior to here 
and thanks for your service here.
    One of the things I am proudest of on this Committee, 
working with Senator Roberts, is I have had the honor--I came 
to the Senate after him but I had the honor of serving on the 
Ethics Committee with him and then serving with him on this 
Committee, and now that he is Chairman I am particularly proud 
of what this Committee did on the Farm Bill last year--
bipartisan basis, Republican-led House.
    What I am especially proud of is we rejected the proposed 
deep cuts to SNAP. That was a resounding victory for moderate-
income and low-income people, understanding while much of 
America does not necessarily see this but all of us know that 
most people that get SNAP benefits are working really hard, 
whether they are swiping a badge or whether they are working 
for tips or whether they are raising children or whether they 
are caring for aging parents. We are a rich country that--I 
think that is why someone as conservative as Chairman Roberts 
and as progressive as Senator Stabenow or me all rushed to that 
position.
    Now USDA comes out with an administrative rule that 
implements some of the same policies, the very same policies 
that Democrats--you know, Senator Grassley and Senator Roberts 
and others, Republicans and Democrats alike, roundly rejected, 
as well as other ideas that would cut benefits. It is simply 
not what Congress wants, that we restrict SNAP benefits. 
Overwhelming vote, almost 90 votes in the Senate on that whole 
issue.
    We learned yesterday that USDA's own analysis found that 
your--your part of the Administration, I cannot imagine as 
decent as you seem you would want to do this, but it ordered by 
the White House, apparently--found that the proposed SNAP cuts 
would make it harder for 1 million children to access school 
meals. This is shameful.
    Why is the Administration so intent on doing this?
    Mr. Censky. Thank you for that question, Senator, and we do 
want to ensure that all those who meet the eligibility 
requirements of SNAP are able to receive it, and we know--we 
agree with you that this--and recognize how important it is to 
provide nutrition assistance. We have over 36 million Americans 
that are receiving that kind of assistance.
    With regard to the analysis that we released--and we want 
to--we opened up the comment period so that we can get 
additional comment on that--one of the questions that was 
asked, as we looked at and released the categorical eligibility 
rule, of how many school children might be indirectly impacted. 
That would not be a direct impact but it would be an indirect 
impact. That analysis did find that potentially 1 million 
children could be impacted.
    Senator Brown. Are you going to withdraw the rule then?
    Mr. Censky. Of that million, 96 percent will continue to 
be--will be eligible for either free or reduced-price meals. 
The only reason the other 4 percent would not be eligible is 
because their incomes of their parents are above the 
eligibility requirements for the SNAP program. You know, we 
will be happy to work with this Committee. I know one of the 
things----
    Senator Brown. But why can't you--why can't you just 
withdraw the rule?
    Mr. Censky. Well, because one of the things that we have 
been criticized for by both the Government Accountability 
Office as well as the nonpartisan Office of Inspector General 
is that we need to make sure that we are enforcing the 
eligibility thresholds that have been set by Congress for these 
programs. They criticized, specifically, with regard to the 
categorical eligibility rule or standards, of just something as 
easy as someone receiving a brochure made them eligible, 
categorically eligible for the SNAP program. We have followed 
the advice to make sure that those are meeting those 
requirements, and that----
    Senator Brown. Okay. I get that. Okay.
    Mr. Censky [continuing]. Assistance is ongoing and----
    Senator Brown. I get it. But, I mean, the hard-heartedness 
of people--that the hard-heartedness opposing the minimum wage 
increase that has not been increased since the Bush years, the 
hard-heartedness of taking 100,000 Ohioans, taking their 
overtime, which they earned, away, the hard-heartedness on 
issue after issue, and then there is this. I mean, I personally 
like you. I do not know you intimately but I know you well 
enough to know that you know better and you are carrying out 
orders.
    Let me switch to another issue, and I am not going to put 
you in the unenviable place of choosing between your current 
and prior employer and ask your thoughts on the Administration 
misguided biofuels. But let me just say a couple of words, Mr. 
Chairman, and then I will be done.
    It is troubling to see the gulf that has emerged between 
the Administration's rhetoric and reality in rural America. I 
have particularly listened to Senator Grassley's words about 
this. Farm revenues are down. Farm foreclosures are up.
    Then the Administration does its inexplicable actions on 
RFS, and Senator Grassley has particularly led the charge on 
this. You know, I understand that farmers are saying that the 
Trump tariffs--and understanding that tariffs are a tool to 
enact a policy, not the policy per se, as the President seems 
to think. But I understand that hurts rural agriculture, rural 
America.
    Particularly when he chose these 31 oil refineries over 
corn and soybean farmers, former soybean executive director or 
president--I am not sure of your term--I just do not get it. It 
is shuttering biofuel plants. It is sweetheart deals for the 
oil industry. It is a President that has chosen oil companies 
over family farmers.
    Regrettably, we know suicides are up for farmers. We have a 
Secretary, based on his recent comments in Wisconsin, does not 
believe that small farms, particularly dairy--I grew up milking 
Guernseys on a 250-acre farm in southern Richland County. I 
know people do not milk Guernseys anymore much, but still, none 
the less. We know that consolidation across the ag sector has 
made it harder for small farmers to compete with larger farmers 
and larger operations.
    When USDA had a chance to focus on market facilitation fee 
payments, the trade bailout, which, I might add, we spent more 
dollars on that trade bailout to farmers than we did on the 
auto rescue--imagine that--and the auto rescue paid it back--
payments to small beginning producers--you choose to target the 
largest, most complicated farm operations for the highest 
levels of assistance. Again, forgetting and betraying--the word 
``betrayal,'' betrayal of auto workers in Cleveland, the 
betrayal in the Midwest, betrayal of our allies in the Mideast 
right now. These higher levels of assistance go to big farms 
instead of small.
    I would just say, instead of promoting policies that help 
the smallest farms I would hope the Administration would begin 
to promote policies that actually help them instead of adding 
to farm consolidation.
    Thank you, Mr. Chairman.
    Chairman Roberts. Earlier I granted Senator Casey one 
additional minute. The Senator owes me a minute because you 
went two over, but it is all right. It is okay. I think you 
pretty well covered the waterfront on a lot of subjects.
    Senator Brown. You say you want to talk about Lake Erie and 
algae blooms? You said the waterfront.
    Chairman Roberts. I have never been to Lake Erie and I do 
not really plan on going.
    [Laughter.]
    Senator Brown. You are just jealous that we have all that 
water in Ohio, Mr. Chairman.
    Chairman Roberts. We have more lakes in Kansas than your 
State. You would call them ponds. I understand.
    Senator Grassley, can you help us out here?
    Senator Grassley. Thank you very much.
    At least a couple of times during my town meetings this 
summer, but also not just this summer but over a period of 
time, there is a lot of distrust among farmers when these crop 
reports come out that just feel very unrealistic, and the 
extent to which you probably feel they are very accurate, you 
understand farmers feel that they are not, considering crop 
conditions this year--wet spring, late getting the crops in, 
dry during July and August, et cetera.
    Give us an update on how you think that the crop reports 
are accurate, or the extent to which they are not. You are 
going to take some steps to do that. Regardless of what you say 
to me, if you say that they are accurate or the best you can 
do, I think you ought to do more to let the farmers have a 
feeling that it is a good-faith, intellectually honest approach 
to it.
    Mr. Censky. Yes. Thank you, Senator, and I agree with you 
about how important they are. We know that they are relied on 
by not only producers but the markets and the trade. They 
really set the standard of how, you know, other private 
forecasts are judged, versus the USDA forecast. So we know how 
important that is.
    You know, we have a long history of making sure, trying to 
make those just as accurate as possible, but we are taking a 
look at given how we can utilize some of the new technologies 
to further improve that as well.
    This spring we had, you know, the situation where after the 
survey was done of producers, it just continued to rain. We 
want to take a look, and we are going to be implementing a 
pilot this year of using and buying even more satellite data, 
so that when we have a very unusual year where things--
conditions change from the survey time, of farmers' intentions, 
to the time that the survey release comes out, if it has 
continued to rain we will be able to utilize rather than just 
the survey information, satellite information and other 
information to give the best forecasts.
    So I agree with you that there is always something that we 
can do better, and we very much want to do that.
    Senator Grassley. I probably would not hear these 
complaints except usually when you do hear the complaint as a 
result of the crop report prices drop dramatically, like the 
one-day in June. I think it was 20 cents, if I recall right, as 
an example.
    My next and last question is in regard to trade and the 
impact of disease on our ability to trade. Trade is very 
important, and foreign animal disease outbreaks would cutoff 
markets and be very devastating. By the way, I hear about this 
from my constituents as well.
    So in the recent Farm Bill we put in a new program, the 
Animal Disease Prevention and Management, to address 
preparedness and a vaccine bank. I am also a co-sponsor with 
Chairman Roberts, Ranking Member Stabenow on a bill to 
authorize more Customs and border protection inspectors.
    Can you talk about the Department's efforts to improve and 
protect the U.S. from diseases, particularly what we are 
hearing about now, African swine fever, but another one that 
really people fear is foot-and-mouth disease. But either one, 
or both.
    Mr. Censky. Yes. I appreciate those questions and agree 
with you. That is one of our most important roles that we have 
at the Department of Agriculture is to protect American 
agriculture, plant and animals, from foreign diseases, and 
making sure that we have robust programs to try to do that.
    We agree that that was a very key provision within the Farm 
Bill, to work on the animal disease preparedness and response. 
We are moving forward with implementing those provisions, to 
strengthen our animal disease preparedness programs as well as 
our laboratory networks. We have asked for proposals and are 
going to be making available up to $10 million this year, just 
the first year, under that program.
    We also are moving forward with the vaccine bank. We have 
issued a sources sought notice so that we can receive from 
vaccine manufacturers information about what kinds of vaccines, 
what serotypes that they have available. We are studying that 
right now and we will be moving forward with a request for 
proposals to actually acquire various serotypes, either late 
this year or very early into the new year.
    Senator Grassley. Thank you very much, Mr. Chairman and Mr. 
Secretary.
    Chairman Roberts. Well, Coop, you came back.
    Senator Thune. I did. Just for you, Mr. Chairman.
    Chairman Roberts. I think next time we will play that song 
that was dedicated to you by Tex Ritter for High Noon.
    Senator Grassley. He is too young to even know who Tex 
Ritter is.
    Chairman Roberts. I know that.
    Senator Thune. Or Gary Cooper, for that matter. I have now 
figured that out, and I am flattered by the comparison. Thank 
you.
    Chairman Roberts. I think both of us realized some time 
back that we are probably the only two that remember who the 
heck Gary Cooper was, in the audience. But I am happy to 
recognize you.
    Senator Thune. Thank you, Mr. Chairman. Deputy Secretary 
Censky, thank you for being here and for all your work 
implementing the Farm Bill. This is an important subject for 
farmers across the country. Obviously, with depressed commodity 
prices and, of course, we have had weather complications, not 
only incredibly wet spring and summer but already a snowstorm 
last week. We are in a tough spot. The ag economy is in a tough 
spot.
    Very quickly, I just wanted to ask you a couple of 
questions, and one has to do with a conversation that we had 
not that long ago, shortly after the fire in the slaughterhouse 
in Kansas, and I called to talk to you about the--you know, 
what is happening with cattle prices, generally, and the 
volatility out there.
    That has--you had, I think, the Department of Agriculture, 
asked Packers and Stockyards Division to look into that 
investigation, and I am wondering what the status of that 
investigation is and when it might be available, if they are 
going to file any kind of a report.
    Mr. Censky. Yes. Thank you very much, Senator, for that, 
and I appreciate your interest in that. That investigation is 
moving forward. They are taking a look at whether there was any 
kind of price manipulation, any unfair practices that took 
place at that time. That investigation is still ongoing right 
now, and so I do not have a timeframe of when that will be 
completed. But we do want to complete that and follow the 
evidence to where it may be. But, unfortunately, I do not have 
a timeframe of when that is going to be wrapped up.
    Senator Thune. Okay. Well, stay in touch with us on that. 
It is something that is of great interest to ranchers in South 
Dakota.
    In the Farm Bill there were several provisions in the 
conservation title that we were interested in and involved 
with. One was the new SHIP program. I am interested about the 
implementation of that. It is a 50,000-acre program, sort of 
pilot program, shorter term in duration than CRP, three-to-
five-year voluntary program that allows farmers to set aside 
acres.
    So that, and then, second, the Farm Bill also raised the 
CRP cap to 27 million acres, from the 24 million in current 
law. My understanding is that this 2019 year so far we have 
only rolled about 700,000 new acres, and we are already 1.6 
million acres below the 24 million cap, which is going up to 25 
million in 2021. We are going to lose eight million acres over 
the next two years, when these contracts expire. So there is 
going to be a lot of ground to make up, and so I would like to 
know sort of the status of what is happening in terms of 
getting more acres enrolled in CRP, to get up to where the law 
now allows for, and also any thoughts about implementation of 
the SHIP program.
    Mr. Censky. Yes. Thank you very much for those questions, 
and I recognize how important the CRP is. We plan on, with 
regard to the new CRP signup, we will be opening sign up, we 
anticipate, in early December, and we believe that that will be 
the largest signup ever. We anticipate that we are going to be 
having a lot of acres that are going to be bid and that we 
expect to enroll a large number of acres under that signup.
    After the general signup that is rolled out in December, we 
plan, early in the new year also opening up the CRP grassland 
signup, and then move on, into the spring, into the SHIP 
program, the short-term Soil Health and Income Protection 
program as well. We anticipate that that signup, that pilot, 
would open up in the spring.
    Senator Thune. Okay. Good. Let me just echo what has 
already--I know the question has been raised a couple of 
different times by a couple of my colleagues on biofuels, but 
let me just reiterate my interest in making sure that that rule 
at EPA gets done right, that the 15 billion gallons that has 
been committed to by the President, by the White House, is 
something that we actually see translated into regulation when 
that time comes. It is among many other things that we are 
dealing with in farm country today an issue that has generated 
a lot of interest and a lot of concern, because of all the 
small refinery exemptions, and the gallonage has been lost as a 
result of that.
    So it is important that we follow the law. The law calls 
for 15 billion gallons, and we want to make sure that the new 
rule incorporates that.
    So I think, Mr. Chairman, I have got a couple other 
questions that I could submit for the record. I do appreciate 
your point about PLC and ARC. Oh, Mr. Chairman, you changed.
    Senator Boozman.
    [Presiding.] I made the point also.
    Senator Thune. Okay. But I am glad we have the flexibility 
in the law today that allows the option. You know, when we get 
to some of the out years in the Farm Bill for farmers if they 
want to opt in or out, depending on what the market conditions 
are at the time.
    But just a quick question, I guess, to close this out, an 
update on how ARC and PLC signups are going so far.
    Mr. Censky. Yes. So far, I mean, obviously the CRP--or for 
the PLC and ARC signup for 2019 just opened up in early 
September, and that is proceeding, as well as, of course, 
signup for the 2020 is open as well. I do not have the exact 
numbers. I would be happy to get back to you on that, of where 
we are. Signup, as you know, extends into next spring, and so 
we still have a lot of time.
    I agree with you 100 percent about that flexibility of 
producers to, under the new Farm Bill, to enroll on a farm-by-
farm and crop-by-crop basis, and choose either PLC or ARC is 
very, very important.
    Senator Thune. Good. Mr. Chairman, I just think as we--with 
all the hardships we have all acknowledged that farmers are 
facing, it is more important now than ever that the policies 
passed in the 2018 Farm Bill get implemented on time and in a 
way consistent with the intent of Congress. We appreciate your 
followup on that and we will look forward to working with you 
to see that that is the case. Now more than ever, our farmers 
need certainty, and if nothing else the things that we can 
control we want to provide that, and the Farm Bill is one of 
those.
    Thank you. Thank you, Mr. Chairman. Thank you, Deputy 
Secretary.
    Mr. Censky. Thank you, Senator.
    Senator Boozman. Senator Hyde-Smith.
    Senator Hyde-Smith. Thank you, Senator Boozman. I too, 
appreciate you being here today and are so willing to answer 
our questions. I appreciate your service for what you do every 
day to help us.
    I also am interested in the packers and stockyards 
investigation, price manipulations, when that comes about. I 
hear that daily in Mississippi, almost, that, you know, we are 
just real concerned about that investigation.
    Also the things that I am hearing concerning the Farm 
Service Agency offices--and you may have been asked this 
before. I have been presiding and I apologize that I am just 
getting here. But as you well know, current law prohibits the 
closure of any Farm Service Agency county offices, and it also 
prohibits the permanent relocation of any FSA county employees 
if it would result in an office with two or fewer employees. 
The Department is transferring FSA county office employees to 
other counties based on the agency's workload analysis, which 
is resulting in the offices that are not technically closed but 
their office is open for appointment-only status. We are just 
very concerned about that and the status of that.
    My question is, how many FSA county offices do you 
anticipate shifting from being open to by appointment only?
    Mr. Censky. Thank you for that question, Senator, and I am 
going to have to get back to you on some of the details on 
that. I will tell you that we very much area interested and we 
plan on having aggressive hiring strategy to beef up our Farm 
Service Agency staff.
    We are using an optimally productive office tool to measure 
what is the workload in the county offices, and we are trying 
to shift and make sure we are placing the resources in the 
offices that have the greatest demand, the greatest number of 
farm loans, the greatest number of PLC contracts, CRP 
contracts, things like that. It is very much being trying to 
objectively measure what is the workload in that office.
    But we do have an aggressive hiring strategy. We know that 
we have been short-handed in some of those offices, and we do 
plan on ramping up our staff.
    Senator Hyde-Smith. Great, because my next question was are 
there any provisions of law that limits the FSA's ability to 
hire staff. So you are telling me you are going in the 
direction of you will be hiring more people.
    Mr. Censky. Yes. We definitely are. I think one of the 
provisions that may be useful is if we had the opportunity for 
direct hire authority. That means that we would be able to hire 
directly, you know, in a local area by advertising in the paper 
or LinkedIn or other measures like that. Right now, under the 
current rules and procedures that govern all government hiring, 
applicants, if they want to be hired, have to apply through the 
USAJobs website and portal. You know, in our counties where you 
and I are from, folks back home probably have never heard of 
USAJobs, and it slows us down in the hiring.
    That might be something we would be very much interested in 
working with you on, to see how we might be able to have that 
kind of direct hire authority.
    Senator Hyde-Smith. Thank you very much. My next question 
has to do with a project that I am very interested in, the 
Okhissa Lake land transfer. In section 8631 of the 2018 Farm 
Bill, it authorize the transfer of approximately 150 acres on 
the Homochitto National Forest in Southwest Mississippi, where 
I live, to a local economic development organization. My 
constituents in the area were very excited about the rural 
economic development aspects of this transfer and what it can 
do for the local economy there. The U.S. Forest Service has 
worked well with the local sponsors and things have been moving 
smoothly to this point.
    However, various studies, such as an environmental 
assessment, must take place before the transfer can even occur, 
and my constituents are concerned about any potential 
unnecessary delays. Can you elaborate on the approximate 
timeframe for transfers such as this to play out?
    Mr. Censky. Senator, I am going to have to get back to you 
on the exact timeframe of where that is and check, and I would 
be happy to get back to you on that. I will say that one of the 
things that we have been doing within the Forest Service is 
look to see how we can speed up our environmental assessments. 
We know that they can take far too long. We want to make sure 
that we are doing things correctly, that we are correctly 
looking at the environmental impacts.
    But many times, in the past, those kinds of assessments 
could take two to three years, and that means people back in 
the local communities are waiting, two, three, four years 
before they get an answer. Our goal is to try to make sure we 
are providing that environmental assessment within a year, to 
complete, which is fast for the Federal Government to go 
through the due diligence. But that is something we are very 
much interested in doing.
    Senator Hyde-Smith. Of course, we are also very concerned 
about the additional cost for that. You know, we are worried 
about how swift we can do it. But when you get into the 
environmental studies on a local level, also, that increases 
our cost.
    Thank you for allowing me to bring that to your attention.
    Mr. Censky. Great. Thank you, Senator.
    Senator Hyde-Smith. Thank you, Mr. Chairman.
    Chairman Roberts.
    [Presiding.] Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. I appreciate 
how quickly USDA worked to stand up the new Dairy Margin 
Coverage program and to begin making refunds available to 
farmers who participated in the old MPP program. However, I am 
concerned that all the producers get the refund that we owe 
them, especially the farmers who have quit dairying over the 
past five years.
    Can you tell me how much of the MPP premiums have been 
returned to farmers and how farmers have elected to receive 
their refund as either cash or credit for a DMC policy?
    Mr. Censky. Thank you for that question, Senator. I am 
going to have to get back to you with the specifics about 
exactly how much has gone, been paid back, and what percentage 
receive, you know, cash back versus applying it as credit or as 
a payment for the DMC enrollment. I would be happy to do that.
    Senator Gillibrand. Okay. Do you know how USDA is working 
to contact farmers that may not have received the money that 
they are owed, particularly those who may have quit dairying?
    Mr. Censky. We have had a very aggressive outreach program, 
I can tell you that, by both sending letters, by trying to 
followup to make sure that we are reaching out by telephone as 
well, to those producers that have participated in the past. 
But if you are aware of others that we are missing in that 
process we definitely want to know about that, so that those 
producers can get the refund, or the opportunity for the refund 
that they deserve.
    Senator Gillibrand. Okay. Well, I would love to work with 
you specifically on some New York dairies that may not have 
been able to get their refund yet.
    Mr. Censky. I am happy to do that.
    Senator Gillibrand. On the nutrition program, your team has 
put a great deal of work into enacting Farm Bill provisions, 
but I am concerned because of the issue with regard to the SNAP 
benefits. The proposal to end broad-based categorical 
eligibility, a tool that makes it easier for States to extend 
SNAP benefits to households that we already know are low-
income, that change would block 3.1 million people from 
receiving SNAP and jeopardize nearly 982,000 children from free 
school meals--likely an underestimate because USDA's analysis 
ignores the impact this rule would have on schools that rely on 
community eligibility to feed all their students.
    Just this month we hear about a rule change on how 
utilities are accounted for in the determination of SNAP 
benefits, a change that really punishes families in States with 
high utility costs, such as New York, because we have very cold 
winters, and cuts $4.5 billion in SNAP benefits over five 
years.
    Now the Senate passed an overwhelmingly bipartisan Farm 
Bill and it did not require the USDA to do any of these things. 
The Senate rejected these proposals outright. How can you 
justify spending so much time and effort on policies that flout 
congressional intent and do the exact opposite of the FNS 
mission, which is to increase food security and reduce hunger 
by providing children and low-income people with access to 
food, a healthy diet, and nutrition education?
    Mr. Censky. Thank you, Senator, and thank you for that 
question. I want to emphasize that we at USDA, we believe in 
the SNAP program and know how important it is to providing 
nutrition assistance. As you know, it provides assistance to 
over 36 million Americans. We want to make sure that all those 
that are eligible to receive the benefits that meet the 
congressionally established eligibility requirements do receive 
that kind of food assistance.
    On some of those proposed rules, such as the standard 
utility allowance, that is a proposed rule, as you know, that 
we have issued. It was something that came to us from our 
career staff that noticed that similarly situated individuals 
across State lines were receiving vastly different benefit 
levels, sometimes up to two and a half times the level of 
someone that is just right across the State line, in a similar 
situation.
    So under the proposal, what we are proposing is to set a 
standard methodology for calculating the utility allowance, to 
set it at the 80th percentile of what people in that State pay, 
and then also include internet service as part of that, because 
we think that has to be part of that standard utility 
allowance. That is a proposal. We are receiving comments on 
that now and are welcoming comments.
    Senator Gillibrand. So as we work together to craft a 
bipartisan child nutrition bill, I want your assurance that you 
will make sure that you intend to implement what we bring to 
USDA.
    Mr. Censky. Sure. We look forward to working with you and 
we will be happy to provide both any kind of technical 
assistance as you craft that, and work with you on that, 
Senator.
    Senator Gillibrand. Thank you. I have additional questions 
on market facilitation payments that I will submit to you for 
the record, because my time has nearly expired.
    Mr. Censky. Okay. Thank you.
    Senator Gillibrand. Thank you. Thank you, Mr. Chairman.
    Chairman Roberts. Okay. We thank the Senator.
    This is going to conclude our hearing today. I want to 
thank you, Deputy Secretary Censky, Steve, for joining us this 
morning. We do appreciate the timely updates on the 
Department's progress implementing the 2018 Farm Bill.
    To my fellow members, any additional questions you may have 
for the record may be submitted to the Committee Clerk five 
business days from today, or by 5 p.m. next Thursday, October 
24th.
    The Committee stands adjourned.
    [Whereupon, at 11:41 a.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                            October 17, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                            October 17, 2019

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
